HHS/OIG-Audit--"Review of Connecticut Department of Social Services Medicaid Reimbursement for Durable Medical Equipment for Recipients in Skilled Nursing Homes, (A-01-00-00002)"
Department of Health and Human
Services
Office of Inspector General -- AUDIT
"Review of Connecticut Department of Social Services
Medicaid Reimbursement for Durable Medical Equipment for Recipients in Skilled
Nursing Homes," (A-01-00-00002)
October 12, 2000
Complete Text of Report is available in PDF format
(948 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We reviewed the Connecticut Department of Social Services'
(State Agency's) Medicaid reimbursement procedures and controls over Medicaid
payments made to outside suppliers for DME when recipients were also receiving
skilled nursing care during their stays in a nursing facility. Most DME are
considered routine equipment that are normally supplied by the SNF, the cost
of which is included in the SNF Medicaid per diem rates. Our review disclosed
that the State Agency has established policies that do not allow for Medicaid
reimbursement of most DME services to outside suppliers while a recipient is
a resident in a SNF. Based on results of a computer match and related payment
testing, we found that the State Agency was adhering to its reimbursement policies
and that DME was not being inappropriately charged to the Medicaid program.
As a result, we have no further recommendations to make on this issue.